        Office of the Inspector General of the Department of Defense




Assessment of DoD Leasing Actions (D-2003-129)




                   August 29, 2003

                                                                       1
                           Table of Contents


Assessment Objectives                                                     3
Part I. Air Force and Office of the Secretary of Defense Lease
           Decision Process                                               4
Part II. DoD Interaction with Congress                                   24
Attachments
         A. Evolution of Assigned Tasking                                37
         B. Personnel Contacted During Review                            42
         C. FY 2002 National Defense Appropriations Act - Section 8159   47
         D. FY 2003 DoD Appropriations Act - Section 8117                50
         E. FY 2003 National Defense Appropriations Act - Section 133    51
         F. Trust Business Relationship and Financing                    53
         G. Lease Timeline                                               55
         H. Chronology of Congressional Interaction                      56
         I. Acronyms                                                     59



                                                                              2
                      Assessment Objectives


• Objective I: To review the decision process used to lease the Boeing 767
   tanker aircraft. Decision process includes:
      – Air Force Process
      – Office of the Secretary of Defense (OSD) Process

• Objective II: To assess whether DoD’s interaction with Congress,
   following the tanker lease decision on May 23, 2003, was timely and
   reasonable.

• See Attachment A for the evolution of the assigned tasking.
   (July 2, 2003 through August 12, 2003)

• See Attachment B for the list of persons contacted during the review of
   the tanker lease decision process and the interaction with Congress.
                                                                             3
            Part I


     Air Force and OSD
Boeing Lease Decision Process




                                4
                     Scope and Methodology


Office of the Inspector (OIG) of the DoD team reviewed:

    • OSD Leasing Review Panel documentation
         – Leasing Review Panel Charter
         – Leasing Review Panel Meeting minutes
         – Leasing Review Panel Working Group minutes
         – Information Paper on Leasing from Office of the Director
              (Program Analysis and Evaluation) (PA&E)

    • Under Secretary of Defense for Acquisition, Technology, and
       Logistics (USD[AT&L]) “Reading Room” documentation
           – Various briefing slides
                  • Capabilities of the 767 Boeing tanker aircraft
                  • Modifications required
                  • Draft contract

                                                                      5
            Scope and Methodology (continued)

OIG DoD team reviewed (continued)

   • Tanker requirements documents
        – Mission Need Statement
        – Operational Requirements Document
        – Briefing slides for Tanker Requirements Study for FY 2005
        – KC-135 Economic Service Life Study

   • Chairman of the Joint Chiefs of Staff letter, March 11, 2003,
      regarding recapitalization of the KC-135 tanker fleet provided to the
      Senate Armed Services Committee.

   • Selected documents in the custody of the staff of Senator John
      McCain, Chairman, Committee on Commerce, Science, and
      Transportation, pertaining to recapitalization and the leasing process.

   • USD (AT&L) Lease Decision Memorandum, May 23, 2003.

                                                                                6
                         Scope Limitation


OIG DoD team did not:

   • Obtain or evaluate detailed Air Force supporting documentation for
      the leasing process, in part because of time constraints on both the
      Air Force and the OIG team.

   • Evaluate the draft contract to lease 100 tanker aircraft. (However, the
      contract was verbally discussed with OSD and Air Force General
      Counsel representatives.)

   • Evaluate whether the process followed was in accordance with the
      DoD acquisition process. (However, the DoD 5000 Series was used
      as a guideline for reviewing key areas.)

   • Evaluate or obtain documentation for the Boeing 737 aircraft lease.

                                                                               7
               Evolution of Tanker Requirement


November 2001 Air Force Mission Need Statement for Future Fuel Refueling
              Aircraft validated by the Joint Requirements Oversight
              Council. Air Force position was to begin tanker aircraft
              recapitalization in FY 2013, based on two February 2001
              studies.

                   • Tanker Requirement Study for 2005
                        – Conducted by Air Mobility Command
                        – Addressed Defense planning guidance, future
                          retirement of KC-135, and mobility requirements
                          study
                        – Study scenario based on:
                            • Major Theater War in Southwest Asia
                            • Major Theater War in Northeast Asia
                            • Strategic Nuclear War
                            • Small Scale Contingency
                            • Special Operations

                                                                            8
Evolution of Tanker Requirement


  • Tanker Requirement Study for 2005 (continued)

     – Concluded air refueling requirements will not be less
       than current requirements because the Air Force needs:

         • 500-600 KC-135R equivalent aircraft with an
           85 percent mission capable rate. Study
           recommended improvements in aircraft availability
           by reducing KC-135 depot levels.

         • 900-1000 aircrews required with a crew ratio of
           1.66 –1.92 crews per aircraft. Study recommended
           increased KC-135 crew ratio.




                                                                9
          Evolution of Tanker Requirement (continued)

November 2001 (continued)
                 • KC-135 Economic Service Life Study addressed aircraft
                   aging costs, availability, future cost outlook and concluded:
                      – Structural integrity of the KC-135 fleet remains strong
                      – Aging-related structural repairs due to corrosion will
                        continue to increase at a manageable rate
                      – Depot level airframe and engine maintenance are the
                        primary cost drivers to sustain the fleet through 2040.

January 2002     FY 2002 National Defense Appropriations Act - Section 8159
                 (Attachment C)
                   • authorizes the Secretary of the Air Force to lease not more
                      than 100 Boeing 767 air refueling aircraft and 4 Boeing 737
                      aircraft,
                   • requires that the present value of lease payments shall not
                      exceed 90 percent of the fair market value of the aircraft,

                                                                              10
         Evolution of Tanker Requirement (continued)

 January 2002   FY 2002 National Defense Appropriations Act (Continued)
                  • does not allow for the purchase of the aircraft by the Air
                    Force or the transfer of ownership of the aircraft to the Air
                    Force, and
                  • provided Air Force opportunity to accelerate
                    recapitalization beginning in FY 2006.

August 2002     Traditional procurement for KC-X program in FY 2004
                President’s Budget
                   • Funding starts in FY 2006 and the first aircraft deliveries
                      begin in FY 2009.

October 2002    FY 2003 DoD Appropriations Act - Section 8117 authorizes the
                Secretary of the Air Force to make: (Attachment D)
                  • advanced payments; and


                                                                                   11
        Evolution of Tanker Requirement (continued)


October 2002    FY 2003 DoD Appropriations Act (continued)
                   • payments required for a lease, or special payments
                     under Section 8159(c)(3), from operation and
                     maintenance or procurement funds available at the
                     time of the lease or when the payment is due, or funds
                     appropriated for those payments.

December 2002   FY 2003 National Defense Authorization Act - Section 133
                (Attachment E)
                    • Requires that, before establishing the lease, the Air
                      Force must:
                        – issue a report to Congress and
                        – get authorization for funding or new start.


                                                                              12
         Evolution of Tanker Requirement (continued)


March 2003         Chairman of the Joint Chiefs of Staff letter to Senate Armed
                   Services Committee supports the need to begin
                   recapitalization sooner rather than later because:
                      • Impact of corrosion rate on operations and support cost
                        of the existing tanker fleet is greater than predicted.
                      • Higher operational tempo due to the Global War on
                        Terrorism and Homeland Defense mission.
                      • Combatant commanders consider operational
                        availability of air refuelers and tanker recapitalization
                        among highest priorities.

Operation Iraqi Freedom may effect military requirements originally determined
in November 2001.



                                                                                    13
                      Air Force Leasing Process

• Air Force took full advantage of legislation to do the lease. Although not
   required by statute, in our opinion, a best business practice could have
   improved this process by:

    – Weighing the need for conducting a formal analysis of alternatives to
       achieve the best possible system solution with emphasis placed on
       innovation, competition, and the evolutionary acquisition process.

    – Better documenting the informal alternative solutions to the need for a
       tanker aircraft in the Air Force Report to Congress, July 11, 2003.

    – Leasing only enough Boeing 767 tanker aircraft to meet readiness and
       operations and support cost concerns until funding is obtained through
       the budget process to purchase the aircraft. We were orally informed
       that this option was discussed.


                                                                                14
          Air Force Leasing Process (continued)


    • To lease the aircraft for 6 years, pay 90 percent of the price of the
      aircraft, and then return the aircraft to the Special Purpose Entity
      appears to be an inefficient use of money when the aircraft’s useful
      life could be over in 40 years.

    • The Air Force has no assurance that Congress will allow it to
      purchase the aircraft at the end of the lease. If the Air Force wishes
      to purchase the aircraft, it should promptly develop the business case
      for purchasing.

– Conducting developmental and operational tests on a low-rate initial
  production model or a prototype to ensure that the tanker aircraft meets
  warfighters requirements before the Air Force enters into the contract.




                                                                               15
              Air Force Leasing Process (continued)


• Federal Government assumes greater financial risk with the lease:
    – Special Purpose Entity. The lease will be a three-party contract
       between the U.S. Government, Boeing, and a special purpose entity
       known as the KC-767A USAF Tanker Statutory Trust 2003-1.

        • At the request of the Air Force, Boeing will administer the leasing
          arrangement and will be responsible for delivery of the supplies and
          services under the contract.

        • Over the course of the lease, the Trust will:
           – issue bonds on the commercial market based on the strength of
               the lease contract with the U.S. Government, rather than the
               credit worthiness of Boeing;
             – buy the aircraft from Boeing;

                                                                                 16
     Air Force Leasing Process (continued)

• Over the course of the lease, the Trust will (continued):
   – lease the aircraft to the Air Force;
   – have an independent director, an employee of the Wilmington
      Trust Company;
    – not make a profit but will provide the funds necessary to pay
      bondholders and pay off the debt after the sale of the aircraft;
      (Any residual funds acquired from the sale of the aircraft
      subsequent to lease termination will be refunded to the
      Government as an overpayment and any loss from the sale will
      be absorbed by the Trust.) and
    – purchase the tanker aircraft from Boeing for $131 million per
      aircraft, subject to economic price adjustments that account for
      inflation and fluctuations in the cost of construction financing.
      (For financing purposes, the lease price will include the Trust’s
      purchase price and construction financing interest for the
      aircraft. As sold to the Trust, the aircraft price is $138.4 million
      [$131 million base price plus $7.4 million construction
      financing]. [Attachment F])
                                                                             17
              Air Force Leasing Process (continued)

• Federal Government assumes greater financial risk with the lease (continued):
    – The lease term for each of the 100 KC-767A aircraft will be 6 years.
       Lease of the initial aircraft is planned to begin in August 2006, with the
       last aircraft returned in September 2017. During the planned lease of
       11 plus years, if interest rates increase more than projected, the economic
       price adjustments could result in the Air Force making higher than
       projected lease payments to cover the increased bond interest rates.

    – If Boeing experiences financial difficulties or if the investors question
       Boeing’s ability to perform under the contract, the Air Force could end up
       making higher than projected lease payments to cover increased bond
       interest rates because of increased financial risk perceived by the bond
       investors.




                                                                                     18
               Air Force Leasing Process (continued)

• Federal Government assumes greater financial risk with the lease (continued):
    – In FY 2003, $3 million were appropriated for the lease effort; however, no
       funds for future years have been specifically identified for the effort.
       Further, funds must be realigned to begin military construction for aircraft
       hangars and bed-down (location where the aircraft will be based) costs. We
       were orally told that the Leasing Review Panel was informed that the Air
       Force has identified offsets for the lease effort and the military construction
       but did not want to reveal the offsets.
    – The Air Force has no assurance that it will be able to obtain funding over
       the 11 year lease period for lease payments or military construction.
       Attachment G shows the lease timeline.

• Under the proposed contract, Boeing will provide contractor logistic support for
   all levels of maintenance before the delivery of the first aircraft. After delivery,
   Air Force maintenance personnel will accomplish organizational level
   maintenance while Boeing will conduct depot maintenance. In the Air Force
   report to Congress, the Trust provided its concern that the leased aircraft be
   properly maintained during the lease period so that it will be marketable at the
   end of the lease.
                                                                                    19
                                  OSD Involvement


• Leasing Review Panel chartered in November 2001 by USD(AT&L) and
 Under Secretary of Defense ([Comptroller]/Chief Financial Officer)
 (USD([C]/CFO))
  – Military Departments asked to identify candidate programs for acquisition
    by means of multiyear leases.
  – As of August 2003, two candidates have been identified:
     • Boeing 737 lease (implemented)
     • Boeing 767 tanker lease (pending)

• Charter role and responsibilities of the Leasing Review Panel
  – Review all lease proposals projected to cost a total of $250 million or more
    over the life of the lease.



                                                                                   20
                     OSD Involvement (continued)


• Charter role and responsibilities of the Leasing Review Panel (continued)
  – Financial perspective
     • Assess the impact of leasing proposals on the Defense budget
     • Ensure that real economic advantages of leasing proposals are reflected
     • Determine that future leasing liabilities do not impair DoD operating
        accounts
  – Review the financial aspects of lease to include:
     • Full funding
     • Equity financing
     • Indemnification, warranties, reparation and disposition of assets
     • Lease with buy option
     • Multiyear financing
     • Planning for exercise of purchase options and termination
  – Provide recommendations to the Defense Acquisition Board or the DoD
    Chief Information Officer
                                                                                 21
                    OSD Involvement (continued)


Leasing Review Panel Membership, who participated in the Boeing 767 lease review

• Co-Chairs of Leasing Review Panel
   – Dr. Dov Zakheim, USD([C]/CFO)
   – Mr. Edward Aldridge, former USD (AT&L), now Mr. Michael Wynne
      (Acting)

• Other Panel Members include:
   – Dr. Wayne Schroeder, Deputy Under Secretary of Defense (Resource
      Planning/Management)
  –   Dr. Nancy Spruill, Director, Acquisition Resources and Analysis
  –   Ms. Dee Lee, Director, Defense Procurement and Acquisition Policy
  –   Mr. Doug Larsen, Deputy General Counsel (Acquisition and Logistics)

                                                                             22
                      OSD Involvement (continued)


• Leasing Review Panel formally met 4 times to review Boeing 767 tanker lease:
    – Obtained independent purchase price analysis from Institute for Defense
       Analyses
     – Resulted in reduction of lease price from $150 million to $131 million per
       aircraft
     – Reviewed terms and conditions of leasing contract
• We were orally informed that the Leasing Review Panel was supported by
  numerous working group meetings and staff reviews.

• Leasing Review Panel did not provide recommendations to the Defense
  Acquisition Board or Chief Information Officer as required by their Charter;
  however, the Defense Acquisition Executive is co-chair of the Panel and the
  Board is advisory to the Defense Acquisition Executive.

• In our opinion, a best business practice would have been to have the Leasing
  Review Panel’s Charter expanded to include the Panel’s role in the acquisition
  process and in the life cycles of the leases the Panel reviewed.

                                                                                    23
            Part II



DoD Interaction with Congress




                                24
                 DoD Interaction with Congress


The following charts discuss the assessment of the DoD interaction with
Congress on the Boeing lease decision.

Request from Mr. Michael W. Wynne – “… assessment of the Department’s
Interaction with Congress following the decision.”
     – OSD decision was May 23, 2003

Objective – Assess whether the Department’s interaction was timely and
reasonable.




                                                                          25
                  DoD Interaction with Congress


Scope
   – Six letters from Senator John McCain, Chairman, Committee
        on Commerce, Science, and Transportation and OSD responses
        (See Attachment H for a chronology of the letters and
        responses).
   –    House Armed Services Committee July 23, 2003, hearing and
        questions for record.
   –    Congressional Budget Office request for Institute for Defense
        Analyses report.
   –    Any other formal contacts - Due to the short turnaround on
        tasking, concentrated on formal taskings and contacts with
        Congress related to Boeing Lease after May 23, 2003.
   –    Limited assessment of Air Force interaction with Congress.
   –    Did not assess if “all records” were provided.
   –    Did not assess interaction with General Accounting Office.

                                                                        26
                                 DoD Interaction with Congress
   Were the OSD responses timely?
      • Generally the responses were timely except for the Congressional Budget
               Office May 29 request and Senator McCain (Chairman) June 20 request.
                – Replies by the Secretary of Defense to Congress are required in 4 workdays
                       or within suspense date. Interim reply required in writing within suspense if
                       suspense cannot be met.
Request                      Response Requested by                Response provided         Response Time
CBO - May 29, 2003 to        None stated (IDA report or           July 15, 2003             Not timely - 47 days since request
Mr. Wynne                    briefing)                                                      and 20 days after internal
                                                                                            suspense date.
Chairman - June 20,          June 24 (IDA report)                 Letter - July 8 interim   Not timely – no interim or
2003 to SecDef                                                    Meeting – July 10 –       response by suspense.
                                                                    Chart on IDA results
                                                                    provided
Chairman - July 2 to         July 9 (answer 4 questions)          July 9 answered           Timely
SecDef
July 2 continued             July 14 (records for 14 areas)       July 15 first records     Considered timely - first response
                                                                  July 21 second            within one day of requests as
                                                                  July 23 third             interims until July 31 final.
Chairman - July 16 to        Request lease as soon as possible    July 21                   Timely - Within 5 days –
Mr. Wynne                                                                                   available in reading room.
Chairman - July 28 to        July 30 - Certify all records were   July 31                   Timely -Within one day of
Mr. Wynne                    provided                                                       request.
Chairman - July 29 to        Repeat request for Lease Proposal    July 31                   Timely - Within two days of
Mr. Wynne                                                                                   request – copy provided
Chairman - August 12 to      No due date – Make available Dr.     August 25 –Dr. Spruill    Timely - No suspense set.
SecDef                       Spruill & General Welch (ret), IDA   met.
                                                                                                                                 27
                 DoD Interaction with Congress


Were the OSD responses reasonable?
   • Generally the responses were reasonable except for:
       – Response to July 2 request could have been improved by:
           • explaining why the documents were provided
              chronologically or
            • sorting the records by the 14 areas requested.
        – Not providing the responses by areas requested or
          explaining why not could raise concern on the
          comprehensiveness of the response.

        – Response to the July 28 letter could have been clearer.
            • The July 31 response that “information relevant to our
              review” could be interpreted to mean that all records relating
              to the request of which the Department was aware were not
              provided.
        – Response could be interpreted as only the records
          considered relevant by the responder were provided.                  28
                 DoD Interaction with Congress


                       Assessment of OSD Responses
• Congressional Budget Office request of May 29 for Institute for Defense
  Analyses study results. Congressional Budget Office requested a briefing
  if report results were not published.
    – OUSD(AT&L) tasking suspense was June 25 (OUSD(AT&L)
       established June 16).
    – Mr. Wynne responded on July 15 that final report not yet available.
    – OUSD(AT&L) response took 47 days from May 29 letter date and 20
       days after internal OUSD(AT&L) suspense to reply that the Institute
       for Defense Analyses report was not yet available.
    – No indication a briefing was provided as requested.




                                                                             29
                DoD Interaction with Congress



• OSD response to the Chairman’s June 20, 2003, request for
   Institute for Defense Analyses report by June 24.
    • Office of the USD(AT&L) drafted a response dated June 24
       and submitted it to Office of General Counsel. Original tasking
       suspense was June 24, date requested by the Chairman. The
       draft response would have answered the Chairman’s request but
       was not issued.
    • “Secretary of Defense Correspondence Suspense
       Requirements,” as of January 31, 2001 – “… Unless special
       instructions for preparation of a faster/later response are
       indicated, the suspense requirements for final replies are as
       follows: …
         • Four (4) workdays … when correspondence is from a Cabinet
          Head, Member of Congress, Governor or Senior White House
          Staff.”


                                                                         30
                  DoD Interaction with Congress


•   OSD response to the Chairman’s June 20, 2003, request for Institute for
    Defense Analyses report by June 24. (Continued)
     • OSD Deputy General Counsel, Acquisition & Logistics stated it was
       determined that instead of providing a letter response, a meeting
       should take place between the Chairman and Mr. Wynne.
     • No interim reply in writing provided within suspense as required
       when a suspense cannot be met. (Administrative Instruction Number
       7, DoD Manual for Written Material, March 1996.)
     • July 8 interim response to June 20 and July 2 letters that documents
       will be provided expeditiously.
     • The first indication the Institute for Defense Analyses reports were
       discussed was at a July 10 meeting between the Chairman and
       Mr. Wynne (July 3 letter from Secretary of Defense to the Chairman,
       Attachment H). Mr. Wynne provided a chart, which summarizes the
       Institute for Defense Analyses KC-767 price estimate.
     • An interim reply should have been made within suspense of June 24.
                                                                              31
                  DoD Interaction with Congress


• OSD responses to the Chairman’s July 2 request to answer four
   questions by July 9 and provide records addressing the 14 areas by
   July 14.
    • OSD answered four questions by requested date (July 9).
    • OSD provided first records on July 15, one day from requested
       date and all records provided or made available by July 31.
    • However, the response to the request did not identify the records
       provided to the specific 14 areas. Based on our discussions, the
       records were provided chronologically because:
         – chronological sequence would best show the process involved
           in making the decision,
         – the records may overlap several of the areas, and
         – incorrectly identifying records to one of the 14 areas could be
           considered non-responsive.

                                                                             32
                  DoD Interaction with Congress


• OSD responses to the Chairman’s July 2 request to answer four questions
   by July 9 and provide records addressing the 14 areas by July 14.
   (Continued)


    • The responses could have explained the reasons the records were not
      identified to the 14 areas.
    • The responses were unclear how the individual records related to
      specific areas requested, thereby requiring the Senate staff to identify
      the documents to the requested areas.




                                                                                 33
                  DoD Interaction with Congress


         Other Issues Related to the Chairman’s Requests

• Records identified as Company Proprietary/Negotiation Sensitive
   were made available in Pentagon Reading Room but not directly
   provided.
    – Additional time would have been required to submit all company
       proprietary records to Boeing for release determination and to review
       all negotiation documents.
• In our opinion, making records available in the reading room was a
   reasonable accommodation.




                                                                               34
                 DoD Interaction with Congress


• E-mails – the Chairman’s July 28 letter commented that no e-mails
   had been included in documents provided.
    – Based on our discussions with OSD personnel, the decision to
       obtain and release e-mails was elevated to Mr. Wynne. He did
       not obtain and release because:
        • DoD has a long standing practice of not sending pre-
           decisional information to the Congress and
        • formal records more accurately reflect process.

• In our opinion, the OSD July 31 response to the Chairman’s July
   28 request could have explained why e-mails were not included.
   The most commonly invoked privilege incorporated within
   Exemption 5, FOIA (FOIA Guide, 2002 Edition: Exemption 5) is
   the deliberative process privilege, the general purpose of which is
   to prevent injury to the quality of agency decisions.


                                                                         35
                     DoD Interaction with Congress

                                 Other Interactions
•   Mr. Wynne testified before House Armed Services Committee on July 23
     – Questions for Record requested and responses from both USD(AT&L) and
        Air Force, dated on or before August 14 were timely.

•   Air Force Taskings (In addition to information provided through OSD)
July 10 Air Force provides “Report to Congressional Defense Committees on KC-
          767A Air Refueling Aircraft Multi-Year Lease Pilot Program” (required by
          FY 2002 DoD Appropriations Act - Section 8159).
July 11 Air Force provides new start notification (required by Section 133 of FY
          2003 Defense Authorization Act).
July 15 Tasking from briefing to House Armed Services Committee (responses sent
          on August 25 – committee staff indicated document could be delayed.)
July 18 Tasking from briefing to Senate Armed Services Committee (responses sent
          on August 25 because Congress was on recess until August 25).
Aug 13 Tasking from Senate Commerce, Science and Transportation Committee
          (response sent August 25).
    Responses to committee staff taskings generally appear timely.
                                                                                     36
          Attachment A - Evolution of Assigned Tasking


The following discusses the evolution of tasking by Mr. Michael W. Wynne
(USD[AT&L]) to review the DoD decision process concerning the Boeing 767
tanker aircraft lease.

July 2, 2003    The Chairman sent a letter to Secretary of Defense Donald
                Rumsfeld suggesting that he ask the Inspector General of the
                Department of Defense to independently review and advise
                him on whether it is appropriate for the Air Force, the lessee
                in this agreement, to sign a multiyear/multibillion dollar deal
                with Boeing while, at the same time, the Air Force and the
                Justice Department are investigating serious allegations
                regarding Boeing’s government contracting practices.




                                                                                  37
          Attachment A - Evolution of Assigned Tasking


July 22, 2003    Mr. Wynne sent a memorandum to Mr. Joseph E. Schmitz,
                 Inspector General of the Department of Defense:

                  • As a result of the Boeing Tanker Lease decision, it is
                    requested that you conduct a review of the process by
                    which DoD achieved the decision.

                  • As part of the review, request your assessment of DoD’s
                    interaction with Congress following the decision.

August 4, 2003   Deputy Inspector General for Auditing received tasking to
                 respond to Mr. Wynne’s request.




                                                                              38
     Attachment A - Evolution of Assigned Tasking (continued)


August 5, 2003   OIG DoD team met with Dr. Robert Buhrkuhl, Deputy
                 Director Acquisition Management, USD(AT&L) to clarify Mr.
                 Wynne’s tasking. He requested that the Inspector General:

                  • Verify the process DoD used to select the multi-year lease
                    option and
                  • Assess DoD’s interaction with Congress following the
                    decision.

August 8, 2003   Office of the Deputy Inspector General for Auditing issued
                 announcement memorandum.

                  • The evaluation objectives were to review the:
                     – DoD decision process concerning the Boeing 767 tanker
                       aircraft lease by August 29, 2003, and
                     – Acquisition process DoD used to conclude that it should
                       lease the Boeing 767 tanker aircraft to determine whether
                       DoD complied with its process requirements.
                                                                                 39
     Attachment A - Evolution of Assigned Tasking (continued)

August 8, 2003   (continued)

                  • Announcement letter did not address the congressional
                    interaction assessment.

                  • Office of the Deputy Inspector General for Inspections
                    and Policy addressed the congressional interaction. The
                    objective was to determine whether DoD’s interaction
                    with Congress, following the tanker lease decision on
                    May 23, 2003, was timely and reasonable.

August 12, 2003 OIG DoD team met with Mr. Wynne for a “heading check”
                to discuss his tasking. During the meeting, Mr. Wynne
                clarified the evaluation objective, which was re-scoped as
                follows:

                  – Review the decision process used by the Air Force and
                    the OSD to lease the Boeing 767 tanker aircraft.

                                                                              40
     Attachment A - Evolution of Assigned Tasking (continued)


August 12, 2003 (continued)

                 – Include in the review the acceleration of the Boeing 767
                   tanker aircraft requirement that was based in part on the
                   escalation of KC-135 aircraft corrosion.

                 – Office of the Deputy Inspector General for Inspections
                   and Policy’s objective remained the same.




                                                                               41
    Attachment B – Personnel Contacted During Review


•   Office of the USD(AT&L)

    –   Mr. Michael Wynne, Acting USD(AT&L)
    –   Dr. Nancy Spruill, Director, Acquisition Resource and Analysis
    –   Mr. Robert Nemetz, Principal Deputy for Acquisition Resource and
        Analysis
    –   Dr. Robert Buhrkuhl, Deputy Director of Acquisition Management
    –   Military Deputy for Acquisition Resource and Analysis
    –   Program Analysts for Acquisition Resource and Analysis

•   Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer

    –   Dr. Wayne Schroeder, Deputy USD for Resource
        Planning/Management
    –   Ms. Caral Spangler, Director of Investments


                                                                             42
         Attachment B – Personnel Contacted During Review
                            (continued)

•   Office of the General Counsel, OSD
     – Associate General Counsel (Acquisition and Logistics)

• Office of the Legislative Affairs, OSD
   – Special Assistant for Advanced Development
   – Special Assistant for Weapon System and Acquisition Policy

• Office of the Director, Program Analysis and Evaluation
   – Dr. Jerome E. Pannullo, Director, Economic and Manpower Analysis
       Division
     – Ms. Kathleen Conley, Division Director
     – Economist/Analysts




                                                                        43
      Attachment B – Personnel Contacted During Review
                         (continued)

• Office of the Director, Operational Test and Evaluation
   – Staff Specialist for Tactical Air Systems

• Office of the Legislative Liaison, Secretary of the Air Force
   – Chief of Mobility and Special Operations Forces, Weapons Systems
       Liaison Division

• Office of the Assistant Secretary of the Air Force (Acquisition)
   – Chief, Mobility Division
   – Chief, Tanker Acquisition
• Office of the Assistant Secretary of the Air Force (Financial Management and
   Comptroller)
    – Major General George Miller (Retired), Advisor
    – Mr. Richard Hartley, Director, Economics and Business Management
    – Economist
    – Financial Analyst
                                                                           44
        Attachment B – Personnel Contacted During Review
                           (continued)

• Office of the Air Force General Counsel
   – Mr. James Hughes, Deputy General Counsel (Acquisition)
• Air Force Program Executive Office for Strategic Programs
   – Brigadier General Ted F. Bowlds, Program Executive Officer
   – Director, Tanker Programs
   – Deputy Chief, Mobility Division
   – Analyst
• Office of the Deputy Chief of Staff for Air and Space Operations
   – Global Mobility Programmer, Global Mobility Division
• Office of the Deputy Chief of Staff for Plans and Programs
   – Deputy Division Chief, Global Mobility Division and Special Operations
       Forces Requirements

• Office of the Deputy Chief of Staff for Installations and Logistics
   – Global Mobility Tankers/Special Operations Forces Division
                                                                         45
      Attachment B – Personnel Contacted During Review
                         (continued)

• KC-767 Tanker System Program Office, Air Force Aviation Systems
   Command
    – Program Director
    – Deputy Program Director
    – Acquisition Program Manager
    – Chief of Air Vehicle Integrated Product Team
• Air Force Operational Test and Evaluation Command
   – Commander, Detachment 5
• General Accounting Office
   – Assistant Director for Defense Capabilities and Management)
   – Senior Attorney
   – Senior Economist
• U.S. Senate Committee on Commerce, Science, and Transportation
   – Senior Investigative Counsel

                                                                    46
Attachment C - FY 2002 National Defense
    Appropriations Act - Section 8159




                                          47
 Attachment C - FY 2002 National Defense
Appropriations Act – Section 8159 (continued)




                                                48
 Attachment C - FY 2002 National Defense
Appropriations Act – Section 8159 (continued)




                                                49
Attachment D - FY 2003 DoD Appropriations Act -
                 Section 8117




                                                  50
Attachment E - FY 2003 National Defense
     Authorization Act – Section 133




                                          51
 Attachment E - FY 2003 National Defense
Authorization Act – Section 133 (continued)




                                              52
Attachment F – Trust Business Relationship and
                 Financing




                                                 53
Attachment F – Trust Business Relationship and
            Financing (continued)




                                                 54
Attachment G – Lease Timeline




                                55
              Attachment H – Chronology of Requests and
       Responses to Senator John McCain, Chairman, Committee on
                 Commerce, Science, and Transportation


June 20 The Chairman requests all Institute for Defense Analyses
2003    reports by June 24
        No response by June 24 (Response drafted not sent)
July 2   The Chairman requests answer to 4 questions and records
        for 14 areas including the second request for Institute for
        Defense Analyses reports.
        Requested response by July 7 and documents by July 14.
July 3 Secretary of Defense responds that Mr. Wynne will contact
        the Chairman to ensure members of Congress have as much
        information as DoD is able to provide.
July 8 Mr. Wynne responded to the June 20 and the July 2 letters -
        will provide all appropriate information in the most
        expeditious manner- 4 questions by July 9; longer to address
        the 14 areas.
July 9 Mr. Wynne answered the four questions and stated that a
        response to the Chairman’s request for records is still being
        worked.
                                                                        56
                Attachment H – Chronology of Requests and
         Responses to Senator John McCain, Chairman, Committee on
             Commerce, Science, and Transportation (continued)

July 10 Mr. Wynne met with the Chairman and provided written
        response dated July 9 to 4 questions and one chart (KC-767
        Price Estimate update). Explained the process on lease
        decision. Mentioned that Institute for Defense Analyses
        report would be finalized by the end of the month.
July 15 Mr. Wynne provided* 66 records in response to the July 2
        request and indicated more would be provided to answer the
        14 areas.
July 16 The Chairman requests copy of the lease.
July 21 Mr. Wynne responded to July 16 letter, provided additional
        documents including redacted version of Institute for Defense
        Analyses report; and notified the Chairman that the
        unredacted version of the Institute for Defense Analyses
        reports and classified documents were in reading room.

* Provided is defined as – a copy provided or made available in reading room.

                                                                                57
                   Attachment H – Chronology of Requests and
     Responses to Senator John McCain, Chairman, Committee on Commerc
                     Science, and Transportation (continued)


July 23 Mr. Wynne provided 24 additional records in response to the July 2
        request.
July 28 The Chairman asked for confirmation that all documents were
        provided.
July 29 The Chairman requested proposed lease contract.
July 30 Mr. Wynne provided 3 records in response to the July 2 request.
July 31 Mr. Wynne provided additional records with a Master List of 215
        records including the previously provided records.
July 31 Mr. Wynne provided a copy of draft leasing agreement after
        obtaining Boeing’s authorization to release.
Aug 12 The Chairman requested Secretary of Defense to make Dr. Spruill
        and General Welch (ret), President and CEO, Institute for Defense
        Analyses, available for interviews with Senate staff.
Aug 25 Dr. Spruill met with Senate staff.

                                                                             58
            Attachment I – Acronyms

IDA            Institute for Defense Analyses
OIG DoD        Office of the Inspector General of the Department of
               Defense
OSD            Office of the Secretary of Defense
PA&E           Program Analysis and Evaluation
SecDef         Secretary of Defense
USD([C]/CFO)   Under Secretary of Defense ([Comptroller]/Chief
               Financial Officer)
USD(AT&L)      Under Secretary of Defense (Acquisition, Technology, and
               Logistics)




                                                                          59
